APPENDIX

1a

APPENDIX A

IN THE SUPREME COURT OF APPEALS OF
WEST VIRGINIA
January 2019 Term

No. 17-0978
STATE OF WEST VIRGINIA,
Plaintiff Below, Respondent
v.
TRAVIS R. NORWOOD,
Defendant Below, Petitioner

Appeal from the Circuit Court of Greenbrier County
The Honorable Robert E. Richardson, Judge
Criminal Case No. 16-F-136
AFFIRMED

Submitted: February 5, 2019
Filed: May 30, 2019

2a
Robert P. Dunlap, Esq.
Sarah F. Smith, Esq.
Robert Dunlap &
Associates
Beckley, WV
Counsel for the
Petitioner

Patrick Morrisey, Esq.
Attorney General
Benjamin F. Yancey, III,
Esq.
Assistant Attorney
General
Charleston, WV
Counsel for the
Respondent

JUSTICE ARMSTEAD delivered the Opinion of the
Court.
CHIEF JUSTICE WALKER concurs and reserves the
right to file a concurring opinion.
JUSTICE WORKMAN concurs, in part, dissents, in
part and reserves the right to file a separate opinion.
SYLLABUS BY THE COURT
1. “The function of an appellate court when
reviewing the sufficiency of the evidence to support a
criminal conviction is to examine the evidence
admitted at trial to determine whether such evidence,
if believed, is sufficient to convince a reasonable
person of the defendant’s guilt beyond a reasonable
doubt. Thus, the relevant inquiry is whether, after
viewing the evidence in the light most favorable to the
prosecution, any rational trier of fact could have found
the essential elements of the crime proved beyond a
reasonable doubt.” Syllabus Point 1, State v. Guthrie,
194 W. Va. 657, 461 S.E.2d 163 (1995).
2. “A criminal defendant challenging the
sufficiency of the evidence to support a conviction

3a
takes on a heavy burden. An appellate court must
review all the evidence, whether direct or
circumstantial, in the light most favorable to the
prosecution and must credit all inferences and
credibility assessments that the jury might have
drawn in favor of the prosecution. The evidence need
not be inconsistent with every conclusion save that of
guilt so long as the jury can find guilt beyond a
reasonable doubt. Credibility determinations are for
a jury and not an appellate court. Finally, a jury
verdict should be set aside only when the record
contains no evidence, regardless of how it is weighed,
from which the jury could find guilt beyond a
reasonable doubt. To the extent that our prior cases
are inconsistent, they are expressly overruled.”
Syllabus Point 3, State v. Guthrie, 194 W. Va. 657, 461
S.E.2d 163 (1995).
3. “When a criminal defendant undertakes a
sufficiency challenge, all the evidence, direct and
circumstantial, must be viewed from the prosecutor’s
coign of vantage, and the viewer must accept all
reasonable inferences from it that are consistent with
the verdict. This rule requires the trial court judge to
resolve all evidentiary conflicts and credibility
questions in the prosecution’s favor; moreover, as
among competing inferences of which two or more are
plausible, the judge must choose the inference that
best fits the prosecution’s theory of guilt.” Syllabus
Point 2, State v. LaRock, 196 W. Va. 294, 470 S.E.2d
613 (1996).
4. “[A] circuit court has no jurisdiction to impose
an enhanced sentence under the [recidivist] statute
where the State fails to prove beyond a reasonable
doubt “that each penitentiary offense, including the

4a
principal penitentiary offense, was committed
subsequent to each preceding conviction and
sentence.” Syllabus, in part, State v. McMannis, 161
W. Va. 437, 242 S.E.2d 571 (1978).
5. “The primary purpose of our recidivist statutes,
W. Va. Code, 61-11-18 (1943), and W. Va. Code, 61-1119 (1943), is to deter felony offenders, meaning
persons who have been convicted and sentenced
previously on a penitentiary offense, from committing
subsequent felony offenses. The statute is directed at
persons who persist in criminality after having been
convicted and sentenced once or twice, as the case may
be, on a penitentiary offense.” Syllabus Point 3, State
v. Jones, 187 W. Va. 600, 420 S.E.2d 736 (1992).
6. A criminal defendant who has been twice
convicted and sentenced for crimes punishable by
confinement in a penitentiary, but has not discharged
such prior penitentiary sentences, and is subsequently
convicted of a third crime punishable by confinement
in a penitentiary, is subject to an enhanced sentence
under our recidivist statute, West Virginia Code §§ 6111-18 (2000) and 61-11-19 (1943).
7. “In determining whether a given sentence
violates the proportionality principle found in Article
III, Section 5 of the West Virginia Constitution,
consideration is given to the nature of the offense, the
legislative purpose behind the punishment, a
comparison of the punishment with what would be
inflicted in other jurisdictions, and a comparison with
other offenses within the same jurisdiction.” Syllabus
Point 5, Wanstreet v. Bordenkircher, 166 W. Va. 523,
276 S.E.2d 205 (1981).

5a
8. “The appropriateness of a life recidivist
sentence under our constitutional proportionality
provision found in Article III, Section 5 [of the West
Virginia Constitution], will be analyzed as follows: We
give initial emphasis to the nature of the final offense
which triggers the recidivist life sentence, although
consideration is also given to other underlying
convictions. The primary analysis of these offenses is
to determine if they involve actual or threatened
violence to the person since crimes of this nature have
traditionally carried the more serious penalties and
therefore justify application of the recidivist statute.”
Syllabus Point 7, State v. Beck, 167 W.Va. 830, 286
S.E.2d 234 (1981).
Armstead, Justice:
Petitioner in the instant action and the defendant
below, Travis Ray Norwood, (hereinafter, “Defendant
Norwood”), was convicted by a jury of his peers on one
count of delivery of a controlled substance — heroin —
in violation of West Virginia Code § 60A-4401(a)(2011). Following that conviction, pursuant to
the provisions of West Virginia Code §§ 61-11-18
(2000) and 61-11-19 (1943), (hereinafter, collectively,
“recidivist statute”),1 the State filed an “Information
Regarding Sentencing,” which alleged that Defendant
Norwood had previously been convicted and
sentenced, on two separate occasions, of felony
offenses that were punishable by incarceration in a
penitentiary.

1 Our previous case law has, at times, referred to

statute as “The Habitual Criminal Act.”

the recidivist

6a
A trial was then conducted pursuant to the
procedures contained in West Virginia Code § 61-1119 (1943), and Defendant Norwood was found by that
jury to be the same person who was previously
convicted of two prior felony offenses. Based upon that
verdict, and the plain language of the recidivist
statute, the circuit court sentenced Defendant
Norwood to “imprisonment in the penitentiary of this
State for the rest of his natural life,”2 on the predicate
delivery of heroin charge.
In this appeal, Defendant Norwood raises three
issues. First, he alleges the evidence was insufficient
to sustain a guilty verdict on the delivery of heroin
charge. Second, he argues that because he was on
probation for his two prior felony convictions and he
had not discharged either of those sentences, the
circuit court’s sentence was illegal. Finally, Defendant
Norwood alleges the sentence of life in prison, on the
charge of delivery of heroin, violates the
proportionality clause contained in Article III, Section
5 of the West Virginia Constitution.
Having considered the parties’ briefs and oral
arguments, the submitted appendix record, and the
pertinent authorities, we find no error. Accordingly,
for the reasons set forth below, Defendant Norwood’s
conviction and sentence are affirmed.

2

Parole eligibility for Defendant Norwood will be determined
by the Parole Board pursuant to the provisions of West Virginia
Code § 62-12-13(c) (2015).

7a
I.

FACTUAL AND PROCEDURAL
BACKGROUND

The facts adduced at trial, and necessary to sustain
a conviction for delivery of a controlled substance,
show that on June 1, 2016, Defendant Norwood sold
heroin to a confidential informant, (hereinafter, “C.I.”)
cooperating with the Greenbrier Valley Drug and
Violent Crime Task Force (hereinafter, “Task Force”).
On that date, the C.I. contacted Defendant Norwood
and made arrangements to purchase an eight-ball (3½
grams) of cocaine. After that conversation, the C.I.
called Task Force member Sergeant Brian Baker of
the Greenbrier County Sheriff’s Department. During
this call, the C.I. informed Sergeant Baker that
arrangements could be made to purchase cocaine from
Defendant Norwood. Sergeant Baker advised the C.I.
to set up the cocaine purchase. Following protocol
established by the Task Force, the C.I. met with
Sergeant Baker who searched both the C.I. and her
car. Neither the C.I. had drugs or money on her
person, nor did her car contain drugs or money.
At that time, Sergeant Baker provided to the C.I.
$280 and placed clandestine audio and video recording
devices in two locations in the C.I.’s car. After all was
ready, the C.I. contacted Defendant Norwood to set up
a meeting at the Pizza Hut in White Sulphur Springs
to buy cocaine. Upon making these arrangements, the
C.I. drove her car to the Pizza Hut, with Sergeant
Baker following in his own vehicle. Sergeant Baker,
parked at a distance, observed the C.I. pull into a
parking spot located near the Pizza Hut.
Once the C.I. parked her car, Defendant Norwood
exited the Pizza Hut and got into the C.I.’s car. For

8a
the first time, Defendant Norwood informed the C.I.
he did not have any “powder,” but he did have some
“dog food.” Defendant Norwood got out of the C.I.’s car
and went back into the Pizza Hut. Once Defendant
Norwood exited the C.I.’s car, the C.I. called Sergeant
Baker and recounted her conversation with Defendant
Norwood. Sergeant Baker testified the term “powder”
is slang for cocaine, and the term “dog food” is slang
for heroin. Sergeant Baker advised the C.I. to
purchase the heroin.
Defendant Norwood reentered the C.I.’s car and was
told by the C.I. that she wanted to buy the previously
offered heroin. As Defendant Norwood did not have
the heroin with him, the C.I. drove Defendant
Norwood to his home in downtown White Sulphur
Springs, where the C.I. gave $230 to Defendant
Norwood. Defendant Norwood got out of the car and
returned a short time later with a large bag of a
substance believed by the C.I. to be heroin. Once in
the C.I.’s car, Defendant Norwood poured some of that
substance into a Pizza Hut receipt in the presence of
the C.I. Defendant Norwood then gave the receipt
containing the substance to the C.I., returned $9 of the
$230 that had been given to him, and exited the car,
taking the remainder of the large bag with him.
Following the purchase, the C.I. was debriefed by
Sergeant Baker and, pursuant to protocol, Sergeant
Baker again searched the C.I.’s car and person for
other drugs and money. Finding none, Sergeant
Baker retrieved the clandestine audio and video
recording devices from the C.I.’s car, the substance
that was purchased by the C.I., and $59 of the $280
that was given to the C.I. for the transaction.

9a
After debriefing, the C.I. and Sergeant Baker parted
ways. Sergeant Baker went to his office, where he
field-tested the substance purchased by the C.I., and
determined it to be heroin. Sergeant Baker processed
the heroin into evidence and secured it in the locked,
temporary evidence locker at the station. On June 13,
2016, Corporal Nathan Hersman of the West Virginia
State Police removed the heroin from its temporary
location, logged it into evidence, and placed it in the
main evidence locker at the station. On June 16, 2016,
Corporal Hersman removed the heroin out of the
evidence locker and delivered it to the West Virginia
State Police Forensics Lab in South Charleston, where
it was further tested and confirmed to be heroin.
Defendant Norwood was indicted on October 4,
2016, on one count of delivery of heroin. On May 4,
2017, following a two-day trial, Defendant Norwood
was convicted of that crime.
During the trial,
Defendant Norwood extensively cross-examined all
prosecution witnesses — two police officers and the
C.I.. During closing argument, Defendant Norwood
argued the police failed to establish the chain of
custody and the evidence as a whole was insufficient
to support his conviction.
Following Defendant Norwood’s conviction, the
State filed its recidivist information on May 19, 2017,
and, on September 25, 2017, Defendant Norwood was
found by a jury to be the same person as had
previously been convicted of two prior felonies. During
the recidivist trial, Sergeant Baker testified
Defendant Norwood was the same person who was
twice previously sentenced to a penitentiary. The first
prior conviction and sentence was for the felony
offense of eluding police in Chesterfield County,

10a
Virginia, on October 28, 2008. The second prior
conviction and sentence was for the felony offense of
selling, giving, distributing, or possessing with the
intent to sell, give, or distribute more than one-half
ounce, but not more than five pounds of marijuana, in
Alleghany County, Virginia, on February 1, 2016. The
circuit court instructed the jury that the prior Virginia
convictions constituted felonies “for which a
penitentiary sentence could be imposed under the laws
of the State of West Virginia.” Having heard the
evidence, the jury returned its verdict that Defendant
Norwood was the same person who was previously
convicted of two felony offenses.
After the jury’s verdict, the matter proceeded to the
sentencing phase. There, the circuit court inquired of
Defendant Norwood and his counsel if there was any
argument regarding proportionality to be made.
Hearing none, the circuit court found both the delivery
of heroin conviction, as well as the prior felony
conviction of eluding police, to be crimes of potential
violence, and pursuant to the plain language of West
Virginia Code § 61-11-18 (2000), sentenced Defendant
Norwood to a term of life in the penitentiary.
Following entry of the circuit court’s sentencing
order, Defendant Norwood filed this appeal.
II.

STANDARD OF REVIEW

Each assignment of error has a different standard
of review. For sufficiency of the evidence, the standard
is:
The function of an appellate court when
reviewing the sufficiency of the evidence to
support a criminal conviction is to examine the
evidence admitted at trial to determine whether

11a
such evidence, if believed, is sufficient to convince
a reasonable person of the defendant’s guilt
beyond a reasonable doubt. Thus, the relevant
inquiry is whether, after viewing the evidence in
the light most favorable to the prosecution, any
rational trier of fact could have found the
essential elements of the crime proved beyond a
reasonable doubt.
....
A criminal defendant challenging the
sufficiency of the evidence to support a conviction
takes on a heavy burden. An appellate court must
review all the evidence, whether direct or
circumstantial, in the light most favorable to the
prosecution and must credit all inferences and
credibility assessments that the jury might have
drawn in favor of the prosecution. The evidence
need not be inconsistent with every conclusion
save that of guilt so long as the jury can find guilt
beyond a reasonable doubt.
Credibility
determinations are for a jury and not an appellate
court. Finally, a jury verdict should be set aside
only when the record contains no evidence,
regardless of how it is weighed, from which the
jury could find guilt beyond a reasonable doubt.
To the extent that our prior cases are
inconsistent, they are expressly overruled.
Syllabus Points 1 and 3, State v. Guthrie, 194 W. Va.
657, 461 S.E.2d 163 (1995). We have further stated:
When a criminal defendant undertakes a
sufficiency challenge, all the evidence, direct and
circumstantial, must be viewed from the
prosecutor’s coign of vantage, and the viewer

12a
must accept all reasonable inferences from it that
are consistent with the verdict. This rule requires
the trial court judge to resolve all evidentiary
conflicts and credibility questions in the
prosecution’s favor; moreover, as among
competing inferences of which two or more are
plausible, the judge must choose the inference
that best fits the prosecution’s theory of guilt.
Syllabus Point 2, State v. LaRock, 196 W. Va. 294, 470
S.E.2d 613 (1996).
Sentencing orders are reviewed “under a deferential
abuse of discretion standard, unless the order violates
statutory or constitutional commands. Syllabus Point
1, in part, State v. Lucas, 201 W.Va. 271, 496 S.E.2d
221 (1997).” Syllabus Point 1, State v. James, 227
W.Va. 407, 710 S.E.2d 98 (2011); Syllabus Point 1,
State v. Kilmer, 240 W.Va. 185, 808 S.E.2d 867 (2017).
III.

ANALYSIS

A. Sufficiency of the Evidence
Defendant Norwood makes two arguments
challenging the sufficiency of the evidence. The first
tests the method by which the Task Force stored the
heroin in its evidence locker, calling into question the
chain of custody. The second relates to the sufficiency
of the evidence as a whole, which Defendant Norwood
alleges was not sufficient to prove guilt beyond a
reasonable doubt. As discussed below, the evidence
adduced at trial demonstrates Defendant Norwood
cannot meet the heavy burden set forth in Syllabus
Points 1 & 3, State v. Guthrie, 194 W. Va. 657, 461
S.E.2d 163 (1995), on either issue.

13a
i.

Sufficiency of the Chain of Custody

Defendant Norwood asserts that there was a break
in the chain of custody because the heroin was left
unattended in the Task Force’s temporary evidence
locker for 13 days, and that evidence was insufficient
to sustain his conviction. This argument has no merit.
As a practical matter, police officers cannot be
expected to sit in an evidence locker 24 hours a day, 7
days a week, 365 days a year. What they can do —
and what they did here — is place the evidence in a
secure temporary locker, until such time as the
evidence can be transferred to the main evidence
locker.
Defendant Norwood argued this very issue to the
jury, and the jury was unpersuaded, and neither are
we. The credibility of this evidence was for the jury to
weigh, and they properly did. There is nothing in the
record that demonstrates Defendant Norwood has
overcome his substantial burden to prevail on a
sufficiency of the evidence challenge on this issue.
ii. Sufficiency of the Evidence As A Whole
On his other sufficiency challenge, the collective
evidence presented during his trial likewise
demonstrates Defendant Norwood cannot meet this
heavy burden.
Upon reviewing the record, the officers establishing
the chain of custody and the C.I. were subject to crossexamination and Defendant Norwood raised the
issues regarding the chain of custody and the C.I.’s
credibility in closing argument. As the State had the
burden to prove Defendant Norwood (1) delivered (2) a
controlled substance, and taking “all inferences and
credibility assessments that the jury might have

14a
drawn in favor of the prosecution,” Syllabus Point 3,
in part, Guthrie, 194 W. Va. 657, 461 S.E.2d 163
(1995), we find there was ample proof to sustain the
charge. These credibility determinations were solely
for the jury to ascertain.
B. Legality of Recidivist Sentence
Defendant Norwood’s second assignment of error is
that he cannot be sentenced to life imprisonment
under our recidivist statute, when his prior felony
convictions have not been discharged. West Virginia
Code § 61-11-18 (2000) provides, in pertinent part:
(c) When it is determined, as provided in
section nineteen of this article, that such person
shall have been twice before convicted in the
United States of a crime punishable by
confinement in a penitentiary, the person shall be
sentenced to be confined in the state correctional
facility for life.
This Court has previously held that “a circuit court has
no jurisdiction to impose an enhanced sentence under
the [recidivist] statute where the State fails to prove
beyond a reasonable doubt that each penitentiary
offense, including the principal penitentiary offense,
was committed subsequent to each preceding
conviction and sentence.” Syllabus, in part, State v.
McMannis, 161 W. Va. 437, 242 S.E.2d 571
(1978)(emphasis added). In other words, to sustain a
conviction in a recidivist action, the prosecution must
prove that each offense is committed subsequent to
each preceding conviction and subsequent to each
preceding sentence.
During the recidivist trial, Sergeant Baker testified
that both prior felony convictions in Virginia —

15a
eluding police and distribution of marijuana — were
crimes punishable by confinement in a penitentiary.
His testimony establishes Defendant Norwood’s first
felony conviction and sentence was prior to Defendant
Norwood’s second felony conviction and sentence. His
testimony further established Defendant Norwood’s
predicate felony conviction — that is, the “principal
penitentiary offense” — was committed after his
conviction and sentence for the second felony offense.
Id.
Defendant Norwood argues he was still on
probation for both of his prior felony convictions at the
time he was convicted and sentenced on the third
felony. Because of this fact, Defendant Norwood
claims his life sentence under our recidivist statute
was illegal. We believe this issue to be one of first
impression, and if this Court were to adopt Defendant
Norwood’s argument, we believe it would further
dilute the clear and unambiguous meaning of our
recidivist statute. See State v. Lane, ___ W. Va. ___,
826 S.E.2d 657 (2019)(Armstead, J., dissenting).
To demonstrate why this argument is meritless, let
us hypothetically explore a potential situation: A
person is convicted of the felony of armed robbery, and
is sentenced to the penitentiary for a determinate term
of not less than ten years. See W. Va. Code § 61-212(a)(1) (2000).
This person, while still in the
penitentiary serving his sentence, commits the felony
of first degree sexual assault. See W. Va. Code § 618B-3 (2006). He is then convicted of that first degree
sexual assault and sentenced to the penitentiary for
an indeterminate term of not less than fifteen nor
more than thirty-five years, while still serving the
sentence for armed robbery. Id. Finally, this person

16a
commits the felony of malicious wounding, while still
in the penitentiary, and while still serving time for the
two prior felonies. See W. Va. Code 61-2-9(a) (2017).
Under Defendant Norwood’s theory, a recidivist life
sentence flowing from the third violent felony would
be improper because that person had not discharged
either of his two prior sentences.
We believe this result is not what the Legislature
intended in enacting the recidivist statute:
The primary purpose of our recidivist
statutes, W. Va. Code, 61-11-18 (1943), and W.
Va. Code, 61-11-19 (1943), is to deter felony
offenders, meaning persons who have been
convicted and sentenced previously on a
penitentiary
offense,
from
committing
subsequent felony offenses.
The statute is
directed at persons who persist in criminality
after having been convicted and sentenced once or
twice, as the case may be, on a penitentiary
offense.
Syllabus Point 3, State v. Jones, 187 W. Va. 600, 420
S.E.2d 736 (1992). In the hypothetical factual scenario
above, there is no doubt that the three-time felon
would be deterred from committing future crimes and
should remain in a penitentiary for life.
We therefore hold that a criminal defendant who
has been twice convicted and sentenced for crimes
punishable by confinement in a penitentiary, but has
not discharged such prior penitentiary sentences, and
is subsequently convicted of a third crime punishable
by confinement in a penitentiary, is subject to an
enhanced sentence under our recidivist statute, West
Virginia Code §§ 61-11-18 (2000) and 61-11-19 (1943).

17a
C. Constitutionality
Proportionality

of

Recidivist

Sentence

-

The sentencing provisions of our recidivist statute,
contained in West Virginia Code § 61-11-18 (2000) are
“free from ambiguity [and] its plain meaning is to be
accepted and applied without resort to interpretation.”
Syllabus Point 2, Crockett v. Andrews, 153 W.Va. 714,
172 S.E.2d 384 (1970). This procedure provides:
Where an accused is convicted of an offense
punishable by confinement in the penitentiary
and, after conviction but before sentencing, an
information is filed against him setting forth one
or more previous felony convictions, if the jury
find or, after being duly cautioned, the accused
acknowledges in open court that he is the same
person named in the conviction or convictions set
forth in the information, the court is without
authority to impose any sentence other than as
prescribed in Code, 61-11-18, as amended.
Syllabus Point 3, State ex rel. Cobb v. Boles, 149 W.Va.
365, 141 S.E.2d 59 (1965); Syllabus Point 3, State ex
rel. Daye v. McBride, 222 W. Va. 17, 22, 658 S.E.2d
547, 552 (2007). Here, the evidence adduced at the
recidivist trial conducted under the provisions of West
Virginia Code § 61-11-19 (1943), clearly established
that Defendant Norwood was previously convicted of
two prior felonies. The circuit court, in applying the
plain meaning of West Virginia Code § 61-11-18
(2000), correctly sentenced Defendant Norwood to life
in the penitentiary.
Further, consistent with the precedents of this
Court, Defendant Norwood’s life sentence does not
violate proportionality principles.
Under the

18a
provisions of Article III, Section 5, of the West Virginia
Constitution, “[p]enalties shall be proportioned to the
character and degree of the offence.” W. Va. CONST.
art. III, § 5. As this Court explained, “Article III,
Section 5 of the West Virginia Constitution, which
contains the cruel and unusual punishment
counterpart to the Eighth Amendment of the United
States Constitution, has an express statement of the
proportionality principle. . . .” Syllabus Point 8, in part,
State v. Vance, 164 W. Va. 216, 262 S.E.2d 423 (1980).”
This Court has previously held:
In determining whether a given sentence
violates the proportionality principle found in
Article III, Section 5 of the West Virginia
Constitution, consideration is given to the nature
of the offense, the legislative purpose behind the
punishment, a comparison of the punishment
with what would be inflicted in other
jurisdictions, and a comparison with other
offenses within the same jurisdiction.
Syllabus Point 5, Wanstreet v. Bordenkircher, 166 W.
Va. 523, 276 S.E.2d 205 (1981).
This Court has also held:
The appropriateness of a life recidivist
sentence under our constitutional proportionality
provision found in Article III, Section 5 [of the
West Virginia Constitution], will be analyzed as
follows: We give initial emphasis to the nature of
the final offense which triggers the recidivist life
sentence, although consideration is also given to
other underlying convictions.
The primary
analysis of these offenses is to determine if they
involve actual or threatened violence to the

19a
person since crimes of this nature have
traditionally carried the more serious penalties
and therefore justify application of the recidivist
statute.
Syllabus Point 7, State v. Beck, 167 W.Va. 830, 286
S.E.2d 234 (1981).
Applying the Beck standard to this case, we first
look at the final felony offense, delivery of a controlled
substance — heroin. The drug transaction itself did
not directly result in actual violence. However, due to
the nature of the drug transaction, and the drug that
was the subject of the transaction, this Court
concludes that there was an inherent threat of
violence. As for the transaction’s nature, Defendant
Norwood sold heroin to a C.I., while Defendant
Norwood was alone with the C.I. in the C.I.’s car,
which contained clandestine audio and video recording
devices. Had those recording devices been discovered,
or the fact that the C.I. was cooperating with the Task
Force been revealed, there would have been a
substantial risk of violence to the C.I..
We acknowledge that a majority in this Court’s
recent opinion in Lane, ___ W. Va. ___, 826 S.E.2d 657
(2019), declined to impose a life sentence on
proportionality grounds under the recidivist statute
where the predicate felony convictions flowed from two
counts of delivery of a controlled substance — a total
of four Oxycodone pills. In this matter, however, due
to the nature of heroin itself, heroin trafficking clearly
warrants application of the recidivist statute.
The delivery and ultimate use of heroin carries with
it an inherent risk of violence to a person. From the
moment of its clandestine creation, heroin is illegal,

20a
and is a silent scourge that has saturated our State.
The West Virginia Department of Health and Human
Resources documents that between 2010 and 2017,
1,086 West Virginians died from heroin overdoses. See
West Virginia Department of Health and Human
Resources, Bureau for Public Health, Health Statistics
Center,
FAST
STATS
—
Heroin
(Fall,
2018), http://www.wvdhhr.org/bph/hsc/pubs/other/He
roinFast_Facts_2017/Heroin_Fast_Stats_ 2017.pdf.
In fact, in the year 2017 alone — 236 deaths —
accounting for 25% of all overdose deaths in the State,
were attributed to the abuse of heroin. Id.
On the issue of whether heroin carries with it a
potential for violence, the circuit court found:
[The] [c]ourt would also note the inherent
danger in the distribution of drugs, and while the
[c]ourt was unable to identify any specific cases
that have been decided by the Supreme Court of
Appeals of this state, finding that distribution of
narcotics has a potential for violence, it certainly
has a potential for risk of injury and death to
persons involved in consuming that product that
Mr. Norwood has been convicted of peddling.
This potential for violence has been acknowledged
by this Court when it held that those who deliver
controlled substances and cause a death can be
convicted of felony murder:
Pursuant to W. Va. Code § 61-2-1 (1991),
death resulting from an overdose of a controlled
substance as defined in W. Va. Code § 60A-4-401
et seq. and occurring in the commission of or
attempt to commit a felony offense of
manufacturing or delivering such controlled

21a
substance, subjects the manufacturer or deliverer
of the controlled substance to the felony murder
rule.
Syllabus Point 3, State v. Rodoussakis, 204 W.Va. 58,
511 S.E.2d 469 (1998); Syllabus Point 12, State v.
Jenkins, 229 W. Va. 415, 729 S.E.2d 250 (2012). This
Court has also upheld a life sentence under our
recidivist statute, when all three felony convictions
were for delivery of crack cocaine. See State ex rel.
Daye v. McBride, 222 W. Va. 17, 658 S.E.2d 547 (2007).
Finally, the Legislature has recently adopted a new
statute, making it a felony to provide a controlled
substance to a person which causes death. See W. Va.
Code § 60A-4-416(a) (2017).
Accordingly, this Court concludes that the delivery
and use of heroin carries with it a potential for actual
violence to a person.
The second part of our analysis examines the
underlying convictions. One of those convictions —
evading police — clearly carries with it the risk of
violence. Defendant Norwood was convicted of this
crime in the Commonwealth of Virginia3 on October
3

Defendant Norwood was convicted of both prior felonies in
the Commonwealth of Virginia. This Court has previously held,
“[w]hether the conviction of a crime outside of West Virginia may
be the basis for application of the West Virginia Habitual
Criminal Statute, W. Va. Code, 61-11-18, -19 (1943), depends
upon the classification of that crime in this State.” Syllabus Point
3, Justice v. Hedrick, 177 W. Va. 53, 350 S.E.2d 565 (1986). See
also State v. Lawton, 125 W. Va. 1, 5, 22 S.E.2d 643, 645 (1942)(“It
is conceivable that there may be crimes which are punishable by
confinement in a penitentiary in other jurisdictions and that the
same crimes would be classed as misdemeanors under our laws.
In such event, it would seem proper that the law of this State

22a
28, 2008, when Defendant Norwood entered a plea of
guilty. The Virginia statute in effect on February 10,
2008, and under which Defendant Norwood was
convicted, provided:
Any person who, having received a visible or
audible signal from any law-enforcement officer
to bring his motor vehicle to a stop, drives such
motor vehicle in a willful and wanton disregard of
such signal so as to interfere with or endanger the
operation of the law-enforcement vehicle or
endanger a person is guilty of a Class 6 felony.
Va. Code Ann. § 46.2-817(B) (2002). An essential
element of the Virginia eluding police statute required
the Commonwealth to prove, beyond a reasonable
doubt, that Defendant Norwood endangered the
operation of a law enforcement vehicle or a person.
As the circuit court found:
[T]he [c]ourt finds that the offense for which
the defendant was previously convicted is not just
a felony offense, but it does involve a significant
risk of danger to the public that is an element of
that offense. Essentially[,] the defendant could

should be considered in determining the grade for the crimes for
which there has been a former conviction.”).
The trial transcript shows that the circuit court discussed this
exact point at length with counsel on the record, even granting a
recess which afforded counsel the further opportunity for review.
No objection was lodged, and — while the court did not specify
what West Virginia felony was analogous to the Virginia evading
police statute — the court instructed the jury that both prior
Virginia convictions would constitute felonies “for which a
penitentiary sentence could be imposed under the laws of the
State of West Virginia.”

23a
not have been convicted of that offense if there
was not an element of endangerment either to the
law enforcement officer vehicle or to any person.
Fleeing from an officer is inherently dangerous
and presents the same type of risk of violence in
the form of a collision that would be presented by
an individual under the influence of alcohol, and
the Supreme Court of this State has repeatedly
found that driving under the influence of alcohol
is a sufficient risk or potential for violence as to
trigger — or as to avoid a finding or
determination that a life sentence would be cruel
or unusual.
Accordingly, based upon the clear meaning of the
provisions of the Virginia statute in question, coupled
with the findings made by the circuit court, we find
that Defendant Norwood’s conviction for eluding police
carried with it the potential for actual violence.
We agree with the circuit court that both the prior
evading police conviction and the predicate conviction
for delivery of heroin, which, under our law, “provides
the ultimate nexus to the sentence,” carried with them
the potential for actual violence. Therefore, we
conclude that the life sentence under our recidivist
statute does not violate proportionality principles.4
State v. Miller, 184 W. Va. 462, 465, 400 S.E.2d 897,
900 (1990)(quoting Wanstreet, 166 W. Va. 523, 534,
276 S.E.2d 205, 212 (1981)).

4

We would also note that Defendant Norwood waived the
Constitutional challenge to his sentence below. The colloquy
during the sentencing phase, coupled with the language in the
circuit court’s order of October 10, 2017, demonstrate that waiver.

24a
IV.

CONCLUSION

Finding no error, for the reasons stated above,
we affirm.
Affirmed.

25a
No. 17-0978 – State of West Virginia
v. Travis Norwood
WORKMAN, Justice, concurring, in
part, and dissenting, in part:
I agree with the majority that a prior conviction can
be used to support a recidivist charge, even if the prior
sentence has not been fully discharged prior to the
third sentence being imposed and that there was
sufficient evidence to support the petitioner’s
conviction for delivery of a controlled substance. I
disagree with the majority in its finding that the
recidivist life sentence imposed under the
circumstances here present did not violate the
proportionality clause of article III, section 5 of the
West Virginia Constitution. Nor is it consistent with
very recent existing law.
In light of the petitioner’s express waiver of this
issue below, the majority could have resolved the issue
based on waiver. But since the majority chose to deal
with the substance of the issue, I will also do so. The
majority’s determination on the merits that the
recidivist life sentence imposed upon the petitioner
does not violate the proportionality clause is in direct
contravention with State v. Lane, ___ W. Va. ___, 826
S.E.2d 657 (2019), an opinion issued over a month ago
by this Court. This Court must seek to treat all
litigants fairly and equally, and as in the Lane case,
the
petitioner’s
recidivist
life
sentence
is
unconstitutional when examined in the backdrop of
his prior convictions.
I.

Waiver

The majority, almost in passing, acknowledges that
prior to sentencing, after the recidivist action was

26a
decided by the jury, “the circuit court inquired of
Defendant Norwood and his counsel if there was any
argument regarding proportionality to be made.
Hearing none, the circuit court found both the delivery
of heroin, as well as the prior felony conviction of
eluding police, to be crimes of potential violence,” and
sentenced the petitioner to life in prison. Again, in
footnote five of the majority opinion, the majority
states: “We would also note that Defendant Norwood
waived the Consitutitional challenge to his sentence
below. The colloquy during the sentencing phase,
coupled with the language in the circuit court’s order
of October 10, 2017, demonstrate that waiver.” Rather
than silence from the petitioner and his counsel, as the
majority’s factual recitation erroneously portrays, or
the “waiver” buried in footnote four after the majority
resolves the proportionality claim on the merits, what
actually transpired below is as follows:
THE COURT:
Should we proceed to
sentencing at this point or do you want to have
time to discuss the issue prepare any — you may
have some motions you want to make before we
get to that point. I’ll be glad to defer sentencing
to give you the opportunity to do that.
MR. RODGERS [the petitioner’s trial
counsel]: Your Honor, I’ve discussed all that with
Mr. Norwood at length last week, and I think he’s
aware that he would face sentencing today
inasmuch as there is no discretion in the statute,
and he’s prepared to be sentenced.
THE COURT: Well, the defendant does have
the opportunity if he wishes to make a
proportionality type argument. I would note that

27a
the offenses for which the defendant has been
found to have been convicted in the
Commonwealth of Virginia include one that
involves an element of recklessness and danger to
the public, which would be akin to the danger
presented and the potential violence associated
with driving under the influence or similar type
of conviction, but if you want to make the
argument, Mr. Rodgers, I want to give you every
opportunity to present your case and to flesh it
out as fully and to make whatever record you
want to make.
MR. RODGERS:
He’s prepared to be
sentenced today, Your Honor, and waive that.
THE COURT: Well, Mr. Rodgers, do you
wish to be heard on the issue of sentencing?
MR. RODGERS: No, Your Honor.
THE COURT:
Mr. Norwood, is there
anything that you would like to say by way of
mitigation of your punishment or otherwise?
THE DEFENDANT: Nothing I can think of,
Your Honor.
THE COURT: Anything that you’d like to put
on the record that the Supreme Court can see if
you choose to file an appeal in this case?
THE DEFENDANT:
Honor.

No, thank you, Your

(Emphasis added). In its October 10, 2017, sentencing
order, based upon the foregoing exchange at the
conclusion of the recidivist proceeding, the circuit
court expressly found that

28a
[t]he Court FINDS that the Defendant has freely,
knowingly and voluntarily waived any contest [to]
the proportionality of the sentence imposed by
statute. The Court further FINDS that, based
upon a complete review of the file, the nature of
the triggering and predicate convictions, and
applicable case law in this State, the sentence as
mandated by statute is not violative of the
Constitution.
Both the transcript of the sentencing phase and the
circuit court’s order evince a clear waiver of the
proportionality challenge the petitioner now assigns
as error on appeal. We recently stated in Montgomery
v. Ames, No. 16-0915, 2019 WL 1890242 (W. Va. April
26, 2019), that
just as an accused may waive his constitutional
rights to assistance of counsel and trial by jury,
which are designed for the protection of his or her
personal rights, an accused may waive the similar
personal right of indictment by a grand jury. An
accused may waive sundry constitutional rights
and privileges, if he or she does so intelligently
and voluntarily.
Id. at *9 (footnote omitted). Further, this Court
repeatedly has found that “[a] criminal defendant can
knowingly and intelligently waive his constitutional
rights,” so long as “such knowing and intelligent
waiver is conclusively demonstrated on the record.”
Syl. Pt. 2, in part, Call v. McKenzie, 159 W. Va. 191,
220 S.E.2d 665 (1975); see Syl. Pt. 3, Losh v. McKenzie,
166 W. Va. 762, 277 S.E.2d 606 (1981) (“A waiver of a
constitutional right must be knowing and intelligent,
that is a voluntary relinquishment of a known right,

29a
and if the waiver is conclusively demonstrated on the
record at trial . . . the waiver makes any issue
concerning the right waived res judicata in succeeding
actions in habeas corpus.”).1
“When there has been a knowing and intentional
relinquishment or abandonment of a known right,
there is no error and the inquiry as to the effect of a
deviation from the rule of law need not be determined.”
Syl. Pt. 8, in part, State v. Miller, 194 W. Va. 3, 459
S.E.2d 114 (1995). Thus, we have found that when an
alleged error, even of a constitutional magnitude, is
waived, it “is not subject to consideration on appeal.”
State v. Sheppard, 172 W. Va. 656, 663 n.1, 310 S.E.2d
173, 180 n.1 (1983).
Consequently, in light of the record demonstrating
a knowing and intelligent waiver based upon advice
from his counsel, the majority was wrong to ignore
that express waiver, pretend it did not exist, and
resolve the waived issue on the merits. Had the
majority simply found the petitioner’s challenge to
proportionality to have been waived, then the circuit
court’s imposition of the recidivist life sentence would
have been susceptible to affirmation by this Court on
appeal. See Syl. Pt. 2, State v. Booth, 224 W. Va. 307,
685 S.E.2d 701 (2009) (“‘Sentences imposed by the
1

Had there not been an express waiver in this case, then this
Court could have properly resolved the merits of the petitioner’s
proportionality challenge. See Syl. Pt. 2, Louk v. Cormier, 218 W.
Va. 81, 622 S.E.2d 788 (2005) (“A constitutional issue that was
not properly preserved at the trial court level may, in the
discretion of this Court, be addressed on appeal when the
constitutional issue is the controlling issue in the resolution of
the case.”). In the case at bar, however, it is not a matter of the
constitutional issue not being properly preserved.

30a
trial court, if within statutory limits and if not based
on some [im]permissible factor, are not subject to
appellate review.’ Syllabus point 4, State v. Goodnight,
169 W. Va. 366, 287 S.E.2d 504 (1982).”). Instead, the
majority ignores the legal significance of the waiver by
determining the merits of the proportionality
challenge, resulting in an opinion that will become the
oft-cited authority for parties to advance waived
arguments on appeal.2
II.

Proportionality Challenge to Recidivist
Life Sentence

Because the majority deems it appropriate to
address the issue of the constitutional proportionality
of the recidivist life sentence imposed in this case on
the merits, finding that the sentence was “consistent
with the precedents of this Court, Defendant
Norwood’s
life
sentence
does
not
violate
proportionality principles[,]” I would be remiss not to
dissent from the majority opinion as that
determination is inconsistent on its face with our
recent Lane decision. See ___ W. Va.___ , 826 S.E.2d
657. It is necessary to place the unjustness of the

2

Despite the waiver of the constitutional proportionality
issue, the petitioner may still pursue an ineffective assistance of
counsel claim in a habeas corpus proceeding. See Miller, 194 W.
Va. at 6, 459 S.E.2d at 117, Syl. Pt. 5 (“In the West Virginia
courts, claims of ineffective assistance of counsel are to be
governed by the two-pronged test established in Strickland v.
Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674
(1984): (1) Counsel’s performance was deficient under an
objective standard of reasonableness; and (2) there is a
reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceedings would have been different.”).

31a
petitioner’s life sentence into perspective in light of
Lane.
Under facts remarkably similar to the instant case,
the majority of this Court, in Lane, reversed the circuit
court’s imposition of a recidivist life sentence. Id. at
___, 826 S.E.2d at 658. In Lane, as in this case, the
petitioner was charged with delivery of a controlled
substance as set forth in West Virginia Code § 60A-4401(a)(2014), which was the triggering felony for
recidivist purposes in both cases. The only difference
between the charge in Lane and the charge in the case
at bar is that Lane involved the drug Oxycodone and,
here, it was heroin. The majority even expressly
confirms this difference, stating that in Lane the
majority declined to impose a recidivist life sentence
where the predicate felonies involved the delivery of
Oxycodone, but “[i]n this matter, however, due to the
nature of heroin itself, heroin trafficking clearly
warrants application of the recidivist statute.”
Under our statutory law, Oxycodone is a Schedule
II drug and heroin is a Schedule I drug, but the
Legislature has found both drugs to have a “high
potential for abuse[.]”3 Further, under the express
statutory language with which both the defendant in
Lane and the petitioner in this case were charged, both
Schedule I and Schedule II drugs are treated the same.
See W. Va. Code § 60A-4-401(a) (providing “[e]xcept as
authorized by this act, it is unlawful for any person
to . . . deliver . . . a controlled substance. Any person
who violates this subsection with respect to:
(I) A
3

See W. Va. Code § 60A-2-203 (2014) (setting for Schedule I
drug criteria) and W. Va. Code § 60A-2-205(2014) (setting forth
Schedule II drug criteria.).

32a
controlled substance classified in Schedule I or
II . . . .”). Thus, statutorily, both drugs are potentially
deadly.
Certainly, the majority’s discernable
rationale, i.e. that heroin carries a more negative
public perception plainly does not justify the
imposition of a recidivist life sentence. Further,
despite the majority’s interjection of “heroin
trafficking” into the mix, in both cases, the charge
came as a result of a controlled-drug buy from a
confidential informant during which law enforcement
officers were closely monitoring their respective
confidential informants. Thus, the triggering felonies
are essentially the same.
With that said, in examining the petitioner’s
previous felonies in this case, his convictions included:
(1) a 2016 conviction in Virginia for distribution or
possession with intent to distribute marijuana for
which he was sentenced to a two-year term of
incarceration with all but sixty days suspended with a
probationary release; and (2) a 2008 conviction, also in
Virginia, for eluding the police in a vehicle for which
he was sentenced to a four-year term of incarceration
that was suspended after the petitioner was
incarcerated for just four months and he was placed on
indefinite probation. In comparison, the petitioner in
Lane was previously convicted of unlawful wounding
in 1997, which was conceded to be a crime of violence,
and conspiracy to commit a felony of transferring
stolen property in 2009. Lane, ___ W. Va. at ___, 826
S.E.2d at 659.
Under the proportionality clause of the West
Virginia Constitution, as set forth in article III, section
5, “[e]xcessive bail shall not be required, nor excessive
fines imposed, nor cruel and unusual punishment

33a
inflicted. Penalties shall be proportioned to the
character and degree of the offence.” (Emphasis added).
In this case, the petitioner was sentenced to a
recidivist life sentence according to the provisions of
West Virginia Code § 61-11-18(c) (2014), which
expressly provides that if a defendant has “been twice
before convicted in the United States of a crime
punishable by confinement in a penitentiary, the
person shall be sentenced to be confined in the state
correctional facility for life.” Despite the statute
providing that a life sentence “shall” be imposed where
a defendant has been convicted of three felonies, any
life sentence imposed by the circuit court under the
recidivist statute, nonetheless, is subject to scrutiny
under the proportionality clause of our Constitution.
See W. Va. Const. art. III, § 5; U. S. Constitution
amend VIII.
To that end, we held in syllabus point four of
Wanstreet v. Bordenkircher, 166 W. Va. 523, 276
S.E.2d 205 (1981), that “[w]hile our constitutional
proportionality standards theoretically can apply to
any criminal sentence, they are basically applicable to
those sentences where there is either no fixed
maximum set by statute or where there is a life
recidivist sentence.” Significantly, “we have
consistently viewed the West Virginia recidivist
statute in a restrictive fashion in order to mitigate its
harshness.”
Id. at 528, 275 S.E.2d at 209.
Accordingly, we further stated in Wanstreet that:
[w]hen we analyze a life recidivist sentence
under proportionality principles, we are in effect
dealing with a punishment that must be viewed
from two distinct vantage points: first, the
nature of the third offense and, second, the

34a
nature of the other convictions that support the
recidivist sentence. This duality is occasioned by
the fact that the punishment for the third felony
conviction is an automatic life sentence
regardless of the nature of the penalty for the
underlying third felony. . . .
We do not believe that the sole emphasis can
be placed on the character of the final felony
which triggers the life recidivist sentence since a
recidivist statute is also designed to enhance the
penalty for persons with repeated felony
convictions, i.e., the habitual offenders.
However, for purposes of proportionality, the
third felony is entitled to more scrutiny than the
preceding felony convictions since it provides the
ultimate nexus to the sentence.
Id. at 533–34, 276 S.E.2d at 212 (footnote omitted).
We then held shortly after Wanstreet:
The appropriateness of a life recidivist
sentence
under
our
constitutional
proportionality provision found in Article III,
Section 5, will be analyzed as follows: We give
initial emphasis to the nature of the final offense
which triggers the recidivist life sentence,
although consideration is also given to the other
underlying convictions. The primary analysis of
these offenses is to determine if they involve actual
or threatened violence to the person since crimes
of this nature have traditionally carried the more
serious penalties and therefore justify application
of the recidivist statute.

35a
Syl. Pt. 7, State v. Beck, 167 W. Va. 830, 831, 286
S.E.2d 234 (1981) (emphasis added); accord Kilmer,
240 W. Va. at 185, 808 S.E.2d at 867–68, Syl. Pt. 3.
The majority’s decision unquestionably conflicts
with our existing law and undeniably treats two
similarly situated individuals disparately.
The
imposition of a life sentence for the three felonies for
which the petitioner stands convicted violates the
proportionality clause of the West Virginia
Constitution. See W. Va. Const. art. III, § 5.
An examination of the petitioner’s prior felonies and
sentences does not support the imposition of a
recidivist life sentence. The petitioner’s convictions in
Virginia for eluding the police and for possession with
intent to deliver marijuana resulted in suspended
sentences and probation being imposed. Despite the
majority’s determination that the conviction for
eluding the police “clearly carries with it the risk of
violence[,]” there was no evidence of the potential
threat of violence and, presumably, the Virginia court
would not have suspended his sentence and probated
the petitioner if, in fact, it considered this to be a
violent crime. See Lane, ___ W. Va. at ___ , 826 S.E.2d
at 658. (reversing recidivist life sentence on facts
identical to case at bar); State ex rel. Boso v. Hedrick,
182 W. Va. 701, 709, 391 S.E.2d 614, 622 (1990)
(reversing recidivist life sentence where the
defendant, who had been previously convicted of
delivery of a controlled substance, which was twenty
grams of marijuana, and breaking and entering,
should not have been sentenced to life imprisonment
for third felony of night-time burglary); State v. Deal,
178 W. Va. 142, 146, 358 S.E.2d 226, 230 (1987)
(reversing recidivist life sentence where defendant’s

36a
triggering offense was possession of a controlled
substance, 125.4 grams of marijuana, with intent to
deliver and defendant had prior violent felony
conviction for unlawful wounding and grand larceny);
see generally Kilmer, 240 W. Va. at 185, 808 S.E.2d at
868, Syl. Pt. 4 (finding that felony offense of driving
while license revoked for driving under influence is not
offense that involves actual or threatened violence to
person for purposes of invoking recidivist statute).4
Because the petitioner has been convicted of a third
felony—the delivery of heroin—the majority wants to
imprison him for life. Let there be no mistake that
while the petitioner’s triggering felony carries a
sentence of one to fifteen years, it does not carry any
mandatory incarceration. Further, under a statute
recently enacted by the Legislature during its 2019
Regular Session, Enrolled Committee Substitute for
Senate Bill 152, referred to as the “Second Chance
Law,” which was approved by the Governor and will
take effect on June 7, 2019, the triggering offense for
the recidivist proceeding against the petitioner would
be subject to an expungement. This drug offense
neither appears in the list of enumerated offenses that
are not susceptible to being expunged nor does it fall
within the statutory definition of a “[f]elony crime of

4 I would be remiss to not point out that the majority’s reliance

upon State ex rel. Daye v. McBride, 222 W. Va. 17, 658 S.E.2d 547
(2007), for the proposition that “[t]his Court has upheld a life
sentence under our recidivist statute, when all three felony
convictions were for delivery of crack cocaine[]” ignores the fact
that there was no constitutional proportionality clause challenge
to the life sentence imposed in Daye. See Lane, ___ W. Va. at ___ ,
826 S.E.2d at ___.

37a
violence against the person[.]” W. Va. Code § 61-11-26
(2)(p) (2019). Thus, under this new law,
a person convicted of a nonviolent felony offense5
or offense arising from the same transaction or
series of transactions may, pursuant to the
provisions of this section, petition the circuit
court in which the conviction or convictions
occurred for expungement of the conviction or
convictions and the records associated with the
conviction or convictions.
Id. § 61-11-26(a)(2) (2019) (footnote added). It is
absurd and nonsensical for the majority to find that a
crime that could be expunged merits imposition of a
recidivist life sentence.
Accordingly, based upon the majority’s decision
to ignore the petitioner’s waiver of the proportionality
challenge and decide that issue on the merits, the
majority erred in finding the imposition of a life
sentence was warranted, an abuse of discretion, and
contrary to this Court’s recent decision in Lane.

5

Of course, this Court’s determination that all “delivery and
use of heroin” crimes “carries with it a potential for actual
violence to a person” necessarily undermines this statute, which
was to provide individuals with a second chance.

38a
No. 17-0978 –State of West Virginia
v. Travis Norwood
WALKER, Chief Justice, concurring:
I agree with the majority’s conclusion that
Mr. Norwood’s conviction should be affirmed because
(1) there was sufficient evidence to support his
conviction for delivery of a controlled substance; and
(2) under the majority’s new syllabus point 6, his
sentence was legal. However, I write separately
because I would affirm the circuit court’s decision on
the third issue, Mr. Norwood’s proportionality
challenge, on the basis that he expressly waived his
constitutional right to make this challenge.
The record is clear that the circuit court specifically
gave Mr. Norwood an opportunity to present a
proportionality challenge and that he expressly
waived the issue. The circuit court determined that
Mr. Norwood “freely, knowingly and voluntarily
waived any contest [to] the proportionality of the
sentence imposed by statute.” Rather than addressing
this express waiver before considering the merits of
the proportionality challenge, the majority opinion
relegates discussion of this issue to a footnote after its
analysis, stating, “We would also note that Defendant
Norwood waived the Constitutional challenge to his
sentence below. The colloquy during the sentencing
phased, couple with the language in the circuit court’s
October 10, 2017, [order] demonstrate that waiver.”
It is well-established that “[a] criminal defendant
can knowingly and intelligently waive his
constitutional rights,” if “such knowing and intelligent

39a
waiver is conclusively demonstrated on the record.”6
In the instance where a party has made a knowing and
intelligent waiver, this Court has recognized that
“there is no error and the inquiry as to the effect of a
deviation from the rule of law need not be
determined.”7 Because the circuit court concluded that
Mr. Norwood had freely, knowingly and voluntarily
waived any contest to the proportionality of his
sentence, I would have resolved this issue on the basis
of waiver. For this reason, I concur.

6

Syl. Pt. 2, in part, Call v. McKenzie, 159 W. Va. 191, 220
S.E.2d 665 (1975).
7

Syl. Pt. 8, in part, State v. Miller, 194 W. Va. 3, 459 S.E.2d
114 (1995).

40a

APPENDIX B

STATE OF WEST VIRGINIA
At a Regular Term of the Supreme Court of Appeals,
continued and held at Charleston, Kanawha County,
on the 5th day of September, 2019, the following order
was made and entered:
State of West Virginia,
Plaintiff Below, Respondent
vs.) No. 17-0978
Travis R. Norwood,
Defendant Below, Petitioner
ORDER
The Court, having maturely considered the petition
for rehearing filed by the petitioner, Travis R.
Norwood, by Robert P. Dunlap, II, his attorney, is of
opinion to and does hereby refuse said petition for
rehearing.
A True Copy
Attest: //s// Edythe Nash Gaiser
Clerk of Court

41a

APPENDIX C

W. Va. Code, § 60A-4-401
Prohibited acts A; penalties
(a) Except as authorized by this act, it is unlawful for
any person to manufacture, deliver, or possess with
intent to manufacture or deliver, a controlled
substance.
Any person who violates this subsection with
respect to:
(i) A controlled substance classified in Schedule I
or II, which is a narcotic drug, is guilty of a
felony and, upon conviction, may be imprisoned
in the state correctional facility for not less than
one year nor more than fifteen years, or fined
not more than twenty-five thousand dollars, or
both;
(ii) Any other controlled substance classified in
Schedule I, II or III is guilty of a felony and,
upon conviction, may be imprisoned in the state
correctional facility for not less than one year
nor more than five years, or fined not more than
fifteen thousand dollars, or both;
(iii) A substance classified in Schedule IV is guilty
of a felony and, upon conviction, may be
imprisoned in the state correctional facility for
not less than one year nor more than three
years, or fined not more than ten thousand
dollars, or both;

42a
(iv) A substance classified in Schedule V is guilty of
a misdemeanor and, upon conviction, may be
confined in jail for not less than six months nor
more than one year, or fined not more than five
thousand dollars, or both: Provided, That for
offenses relating to any substance classified as
Schedule V in article ten of this chapter, the
penalties established in said article apply.
(b) Except as authorized by this act, it is unlawful for
any person to create, deliver, or possess with intent
to deliver, a counterfeit substance.
Any person who violates this subsection with
respect to:
(i) A counterfeit substance classified in Schedule I
or II, which is a narcotic drug, is guilty of a
felony and, upon conviction, may be imprisoned
in the state correctional facility for not less than
one year nor more than fifteen years, or fined
not more than twenty-five thousand dollars, or
both;
(ii) Any other counterfeit substance classified in
Schedule I, II or III is guilty of a felony and,
upon conviction, may be imprisoned in the state
correctional facility for not less than one year
nor more than five years, or fined not more than
fifteen thousand dollars, or both;
(iii) A counterfeit substance classified in Schedule
IV is guilty of a felony and, upon conviction,
may be imprisoned in the state correctional
facility for not less than one year nor more than
three years, or fined not more than ten
thousand dollars, or both;
(iv) A counterfeit substance classified in Schedule

43a
V is guilty of a misdemeanor and, upon
conviction, may be confined in jail for not less
than six months nor more than one year, or
fined not more than five thousand dollars, or
both: Provided, That for offenses relating to any
substance classified as Schedule V in article ten
of this chapter, the penalties established in said
article apply.
(c) It is unlawful for any person knowingly or
intentionally to possess a controlled substance
unless the substance was obtained directly from, or
pursuant to, a valid prescription or order of a
practitioner while acting in the course of his
professional practice, or except as otherwise
authorized by this act. Any person who violates this
subsection is guilty of a misdemeanor, and
disposition may be made under section four
hundred seven of this article, subject to the
limitations specified in said section, or upon
conviction, such person may be confined in jail not
less than ninety days nor more than six months, or
fined not more than one thousand dollars, or both:
Provided, That notwithstanding any other
provision of this act to the contrary, any first
offense for possession of Synthetic Cannabinoids as
defined by subdivision (32) subsection, (d), section
101,
article
1
of
this
chapter;
3,4methylenedioxypyrovalerone (MPVD) and 3,4methylenedioxypyrovalerone and/or mephedrone
as defined in subsection (f), section 101, article 1 of
this chapter; or less than 15 grams of marijuana,
shall be disposed of under said section.
(d) It is unlawful for any person knowingly or
intentionally:

44a
(1) To create, distribute or deliver, or possess with
intent to distribute or deliver, an imitation
controlled substance; or
(2) To create, possess or sell or otherwise transfer
any equipment with the intent that such
equipment shall be used to apply a trademark,
trade name, or other identifying mark, imprint,
number or device, or any likeness thereof, upon
a counterfeit substance, an imitation controlled
substance, or the container or label of a
counterfeit substance or an imitation controlled
substance.
(3) Any person who violates this subsection is
guilty of a misdemeanor and, upon conviction,
may be imprisoned in jail for not less than six
months nor more than one year, or fined not
more than five thousand dollars, or both. Any
person being eighteen years old or more who
violates subdivision (1) of this subsection and,
in so doing, distributes or delivers an imitation
controlled substance to a minor child who is at
least three years younger than such person is
guilty of a felony and, upon conviction, may be
imprisoned in the state correctional facility for
not less than one year nor more than three
years, or fined not more than ten thousand
dollars, or both.
(4) The provisions of subdivision (1) of this
subsection shall not apply to a practitioner who
administers or dispenses a placebo.

45a
W. Va. Code, § 61-11-18
Punishment for second or third
offense of felony
(a) Except as provided by subsection (b) of this section,
when any person is convicted of an offense and is
subject to confinement in the state correctional
facility therefor, and it is determined, as provided
in section nineteen of this article, that such person
had been before convicted in the United States of a
crime punishable by confinement in a penitentiary,
the court shall, if the sentence to be imposed is for
a definite term of years, add five years to the time
for which the person is or would be otherwise
sentenced. Whenever in such case the court
imposes an indeterminate sentence, the minimum
term shall be twice the term of years otherwise
provided for under such sentence.
(b) Notwithstanding the provisions of subsection (a) or
(c) of this section or any other provision of this code
to the contrary, when any person is convicted of
first degree murder or second degree murder or a
violation of section three, article eight-b of this
chapter and it is determined, as provided in section
nineteen of this article, that such person had been
before convicted in this state of first degree murder,
second degree murder or a violation of section
three, article eight-b of said chapter or has been so
convicted under any law of the United States or any
other state for an offense which has the same
elements as any offense described in this
subsection, such person shall be punished by
confinement in the state correctional facility for life
and is not eligible for parole.

46a
(c) When it is determined, as provided in section
nineteen of this article, that such person shall have
been twice before convicted in the United States of
a crime punishable by confinement in a
penitentiary, the person shall be sentenced to be
confined in the state correctional facility for life.

